                                                   -
                                                                                                   I




 $j@.                                             NATIONAL
                                                   OFFICE OFSCIENCE
                                                            INSPECTOR
                                                                    FOUNDATION
                                                                      GENERAL                      11

 Z
  .
  4
                                                       OFFICE OF INVESTIGATIONS                        I



     0                                      CLOSEOUT MEMORANDUM                                        I!

      0hD *+O


Case Number:I04100040                                                                        Page 1 of 1
                                                                                                        '1

                                                                                                           li

         In July 2004, the Office of Inspector General initiated a proactive review of participant siipport
         funds allocated to NSF awards. Participant support costs are expended to or on the behalf of
         participants or trainees (but not employees) for stipends, subsistence, travel and registration fees
         for conferences, symposiums andlor workshops. To that end, OIG randomly selected thid award1
         for review.
                                                                                                                /I



         Our initial review of the documentation submitted by the university revealed several
         expenditures that did not appear to be allowable under the participant support guidelines. The
         preliminary inquiry was closed and an investigation was initiated in order to get further 1
         information from the university.
                                                                                                                 I1


         Specifically, the university discovered an overpayment to a participant that did not appear
         (according to the records OIG received) to be credited back to the NSF award; there was some
         discrepancy regarding the number of participants (52 v. 55 participants) paid for by the award;
         and finally, there was alcohol served at one of the conference dinners in which the service charge
                                                                                                     /I
         appeared to be charged to the NSF award.
                                                                                                                      11
         OIG requested and received additional documentation showing the overpayment to the grant was
         charged back to the grant. The university also submitted the final participant(s) identifying 52
         participants for the conference.
                                                                                                                       I\


         After reviewing the additional documentation submitted, OIG is satisfied that the university r e ~ e d
         the overpayment to the grant; however, the service charge3on the alcohol was paid for with federal
         funds; therefore, unallowable. The university issued a check to the NSF re&ing those funds.
         Accordingly, this case is closed.
                                                                                                                           I/



                                                                                                                           I/




                                                                                                                                10




          ' footnote redacted
         * footnote redacted
           footnote redacted

                                                                                                                                     e


NSF OIG Form 2 (1 1/02)                                                                                                              i
